BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1
unbound copy and 40 bound copies of the foregoing
Brief for the Petitioners and Joint Appendix in 201009, David Shinn, et al. v. David Martinez Ramirez
and Barry Lee Jones, was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day and e-mail service to the following parties
listed below, this 15th day of July 2021:
Robert Mark Loeb
Orrick, Herrington & Sutcliffe LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-8475
rloe b@orrick.com
Counsel for Respondents
Lacey Stover Gard
Chief Counsel
Counsel of Record
Office of the Arizona Attorney General
400 W. Congress, Bldg. 8-315
Tucson, AZ 85701-1367
(520) 628-6620
lacey.gard@azag.gov
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 15, 2021.

t .riplett Morga!!---.._

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Publlc, Stall af CINo
My Commllllan Expires
rebruary 14, 2023

